No. 19-352

 

In THE
Supreme Court of the United States

ROBIN BRINDLE, KATHLEEN BROWN, SANDRA CARTER,
MARCIE LAPORTE, AND KELVIN RAMIREZ,

Petitioners,
Vv.

DELTA AIR LINES, INC., AND THE RHODE ISLAND
DEPARTMENT OF LABOR AND TRAINING,

Respondents.

On Petition for a Writ of Certiorari
to the Supreme Court of Rhode Island

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,259 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 26, 2019.

 

Colin Casey Hofan
Wilson-Epes Printing Co., Inc.
